<html>
<title> - TESTING THE LIMITS: IRAN'S BALLISTIC MISSILE PROGRAM, SANCTIONS, AND THE ISLAMIC REVOLUTIONARY GUARD CORPS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





              TESTING THE LIMITS: IRAN'S BALLISTIC MISSILE
                  PROGRAM, SANCTIONS, AND THE ISLAMIC
                       REVOLUTIONARY GUARD CORPS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 29, 2017

                               __________

                           Serial No. 115-14

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-834PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          





























                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
DARRELL E. ISSA, California          GERALD E. CONNOLLY, Virginia
RON DeSANTIS, Florida                DAVID N. CICILLINE, Rhode Island
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
BRIAN K. FITZPATRICK, Pennsylvania
















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Kenneth Katzman, Ph.D., specialist in Middle Eastern Affairs, 
  Congressional Research Service.................................     8
Mr. Michael Eisenstadt, Kahn Fellow, director of Military and 
  Security Studies Program, The Washington Institute for Near 
  East Policy....................................................    24
Ms. Elizabeth Rosenberg, senior fellow and director, Energy, 
  Economics and Security Program, Center for a New American 
  Security.......................................................    42

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Kenneth Katzman, Ph.D.: Prepared statement.......................    10
Mr. Michael Eisenstadt: Prepared statement.......................    27
Ms. Elizabeth Rosenberg: Prepared statement......................    44

                                APPENDIX

Hearing notice...................................................    70
Hearing minutes..................................................    71
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    72

 
                  TESTING THE LIMITS: IRAN'S BALLISTIC
                  MISSILE PROGRAM, SANCTIONS, AND THE
                   ISLAMIC REVOLUTIONARY GUARD CORPS

                              ----------                              


                       WEDNESDAY, MARCH 29, 2017

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. 
After recognizing myself and Ranking Member Deutch for 5 
minutes each for our opening statements, I will then recognize 
other members seeking recognition for 1 minute or longer. We 
will then hear from our witnesses.
    Without objection, witnesses, your prepared statements will 
be made a part of the record. Members may have 5 days in which 
to insert statements and questions for the record subject to 
the length limitation in the rules.
    The Chair now recognizes herself for 5 minutes.
    In the nearly 2 years since the United Nations Security 
Council adopted Resolution 2231, approving the Joint 
Comprehensive Plan of Action, JCPOA, and lifting sanctions on 
Iran, one thing has been abundantly clear: The notion that Iran 
would now modify its behavior and become a responsible member 
of the international community has proven to be completely and 
utterly false.
    Many of us knew that the Iranian regime would not moderate 
its behavior, but that it would amplify its illicit activity 
using the nuclear deal as leverage. Sure enough, since the 
JCPOA was signed, we have seen an Iran that has taken U.S. 
citizens hostages and demanded, and unfortunately, received 
ransom for their return. As a result, Iran has since held 
additional U.S. citizens and permanent U.S. residents with the 
expectation of receiving more ransom payments.
    The regime continues to support the Assad regime with 
money, supplies, weapons, fighters, and is doing the same in 
Yemen with the Houthis. Iran's ships have made dozens of 
provocative actions toward U.S. ships in the Strait of Hormuz 
and the Persian Gulf, with the regime playing a dangerous game 
and harassing our vessels.
    Iran continues to support terror around the world, most 
notably through its support of the terror group Hezbollah. This 
has allowed Hezbollah to increase its stockpiled rockets and 
missiles to 150,000 or more and add more sophisticated missiles 
to its arsenal, putting our friend and ally, the democratic 
Jewish state of Israel, under greater threat.
    All of these activities have seen an uptick since the JCPOA 
and all are indeed very troubling, but perhaps the most 
egregious and troubling is Iran's continued pursuit of a viable 
ballistic missile program. Why? Because history has shown us, 
and as one witness before this panel previously stated, that 
nuclear weapons and ballistic missile programs go hand in 
glove.
    Over time, the correlation between a country's nuclear 
program and a corresponding ballistic missile program has 
proved to be absolute: That countries that sustain indigenous 
medium and long-range ballistic missiles always aspire to 
possess nuclear weapons.
    Since the signing of the JCPOA, Iran has tested, according 
to some sources, at least 15 ballistic missiles, and it has 
done so in open defiance of Resolution 2231.
    It came as a shock to so many of us that a final concession 
to Iran was given when the U.S. agreed to lift the arms embargo 
as part of the nuclear deal, especially when we were told 
repeatedly that the deal was only on the nuclear program. That 
is why the Trump administration needs to follow through on some 
of its promises and reevaluate the JCPOA and the 2231 
resolution.
    We are seeing an uptick in these ballistic missile tests 
and Iran's aspiration for an ICBM program, precisely because 
the regime wants to be ready to be able to deliver a nuclear 
payload when the terms of the JCPOA expire and we will have 
walked them right into it.
    We simply cannot allow the regime to continue with these 
provocations. We need to go back to the Security Council and 
find a way to make sure that there can be no ambiguity. Any 
ballistic missile testing, any attempt to acquire ballistic 
missile technology or expertise, and any attempt to proliferate 
from the regime must be stopped and sanctioned.
    The original intent of the nuclear sanctions was to put so 
much pressure on the regime that it would be forced to end all 
enrichment and completely dismantle its nuclear program and 
infrastructure. That needs to be our approach on the regime's 
missile program, while also revisiting the JCPOA and all of its 
flaws.
    We already have important tools for the President to use 
now, like the Iran, North Korea, and Syria Nonproliferation 
Act. Sadly as this subcommittee learned last Congress, the 
State Department and the previous administration sat on these 
important reports and sanctions, oftentimes for years, in order 
to not upset the regime during these sensitive negotiations. 
The latest round of sanctions, on March 21, is a good step, but 
this report came 9 months after the previous report and only 
covered activities that took place in the year 2014. So we 
still have a very serious backlog.
    The new administration needs to step up its Iran, North 
Korea, and Syria nonproliferation activities and it needs to 
use the other tools available to it. One tool should be 
Chairman Royce and Ranking Member Engel's new bill, of which I 
am proud to be a cosponsor, that specifically targets Iran's 
ballistic missiles.
    We need Iran and those that seek to supply it with the 
technology or know-how to know that we will bring down 
sanctions so crippling on them that they will have to think 
twice about developing its ballistic missile program. We need 
to fully and vigorously enforce our current sanctions and then 
strengthen and expand them to ensure maximum pressure is 
exerted because Iran only responds to strength and pressure.
    With that, I am pleased to yield to the ranking member, Mr. 
Deutch, for his opening statement.
    Mr. Deutch. Thank you, Madam Chairman. Thanks for calling 
today's very timely hearing.
    Iran is not a new subject for the subcommittee. We have 
explored its nuclear program, the threat it poses to Israel, 
its relationships with North Korea and Hezbollah, and the 
realities that it hopes to exploit under the JCPOA.
    Today we will focus on Iran's nonnuclear behavior, its 
ballistic missile program and its dangerous Revolutionary Guard 
Corps. I know that you and I share the belief that this 
Congress can still move resolutely against Iran's continued 
pursuit of ballistic missiles. I want to thank our witnesses 
for being here to answer our questions and help us frame our 
conversation, and I look forward to what I know will be a 
healthy exchanges of ideas.
    Despite the nuclear deal, Iran's behavior has not changed. 
Now freed from many of the sanctions that once isolated it, 
Iran is looking to integrate itself into the global economy and 
to normalize its relations with the Western countries. 
Unsurprisingly, this hope has been undermined by Iran's 
continued support for the murderous Assad regime in Syria, 
funding of Hezbollah in Lebanon, calls for the destruction of 
Israel, and insistence on sowing instability beyond its 
borders.
    In many areas of conventional military power, Iran lags far 
behind its neighbors. To make up for these deficiencies, Iran 
now has the Middle East's largest arsenal of ballistic missiles 
and is developing the know-how to produce increasingly complex 
missile components on its own. Thanks to the Russians, Iran now 
has the S-300 missile defense system. And in a matter of a few 
years, the Iranian space program claims it will be able to 
create rockets that can drop a warhead anywhere in the world.
    It is clear that left unhindered, the scale and the 
sophistication of the Iranian missile program will only grow, 
and it is incumbent on this Congress to act decisively to halt 
its progress. However Members may have felt about the nuclear 
deal, we can all agree that the JCPOA does not prevent us from 
responding to reckless behavior from Iran and that U.N. 
Security Council Resolution 2231 forbids the Iranians from 
testing or developing ballistic missiles.
    Despite that resolution, the Iranian Revolutionary Guard 
Corps, which oversees the missile program, has conducted test 
after test of these weapons in defiance of the will of the 
international community. The fact that an organization like the 
IRGC, which supports terrorist organizations like Hamas and 
Hezbollah, is also in charge of dangerous missile technologies 
should send a chill down the spine of anyone working for peace 
and stability in the Middle East.
    The United States has an obligation to stand against the 
IRGC's repeated provocations by raising the issue of missile 
tests in the Security Council at every opportunity. We also 
need to use our influence at the U.N. to encourage allies to do 
the same, even at a time when our new President seems intent on 
abdicating America's role as a leader in international 
diplomacy.
    In addition to robust engagement at the Security Council, 
we can take a number of concrete steps to box in the Iranians.
    First, we need to pass the bipartisan H.R. 1698, which I am 
proud to cosponsor. The bill would sanction countries like 
Russia that sell missile technology to Iran, the financial 
institutions that make those sales possible, and the Iranian 
entities that contribute to the country's domestic missile 
industry.
    Second, we have to support full and vigorous enforcement of 
the JCPOA, which means ensuring that the IAEA has the resources 
that it needs to carry out its monitoring, and, importantly, 
embracing Europe's renewed interest in tightening 
implementation of the deal.
    Finally, we should encourage GCC states to adopt a 
coordinated missile defense system that will act as a deterrent 
to Iranian aggression in the Gulf.
    I don't pretend that this list is exhaustive, and I am glad 
we have the opportunity today to discuss all of our options. 
Whatever path we take, it is clear that we must act together 
and that we must act quickly. The danger that Iran continues to 
pose through its funding of terrorist organizations, its 
meddling in regional affairs, and its pursuit of ever more 
deadly ballistic technologies demands continued engagement from 
the United States and our allies.
    We have seen that international coordination against the 
threat from Iran is possible, and we know that there is strong 
bipartisan support in Congress for decisive action of this 
kind. I welcome a thoughtful discussion today about the tools 
we have at our disposal, and I encourage my colleagues to 
remain united against Iran's violations of international law 
and its clear refusal to live in peace with its neighbors.
    And I will yield back the balance of my time. Thank you, 
Madam Chairman.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch.
    And now we will turn to our members for their opening 
statements, starting with Mr. DeSantis of Florida.
    Mr. DeSantis. Thank you, Madam Chairman.
    We have been on this committee years talking about Iran, 
talking about the Iran deal. We were told at the time this deal 
would help bring Iran into the community of nations, it would 
improve their behavior if we just let our boot off their neck 
and released all these sanctions. That hasn't happened here. We 
are talking about now their belligerence, what they are doing 
with ballistic missiles.
    Go back to this deal. The Obama administration conceded at 
the outset on the ballistic missile issue, which was a major 
mistake to begin with. We see Iran has been emboldened by this 
deal, their belligerent conduct throughout the Middle East in 
places like Syria, Lebanon, Yemen, has demonstrated that they 
are very much a malevolent force.
    And I think I join both my colleagues in supporting the 
need for us to move very swiftly on tough sanctions, both again 
Iran's ballistic missile program and against the Revolutionary 
Guard Corps.
    And I yield back the balance of my time.
    Ms. Ros-Lehtinen. Thank you very much, Mr. DeSantis.
    Mr. Boyle of Pennsylvania.
    Mr. Boyle. Thank you, and I will be brief. Some of this 
will be a little bit repetitive from what Mr. Deutch was 
saying.
    Essentially the intelligence community has assessed that 
Iran has the largest inventory of ballistic missiles in the 
Middle East. U.N. Security Council Resolution 2231 calls upon 
Iran--and let me quote it specifically, because I think this is 
sometimes confused by some, ``not to undertake any activity 
related to ballistic missiles designed to be capable of 
delivering nuclear weapons, including launches using ballistic 
missiles technology.''
    Despite that, we know now there have been some 15 illegal 
tests since 2231 came into force. So I look forward to this 
hearing and specifically discussing ways we can move forward on 
this matter that do not in any way conflict with the JCPOA, but 
live up to the letter of the law of 2231.
    Thank you. I yield back.
    Ms. Ros-Lehtinen. Thank you Mr. Boyle.
    Mr. Mast of Florida.
    Mr. Mast. Thank you, Chairman.
    You know, as we speak about this issue, I just ask that we 
always keep into perspective what we have allowed to become 
very cliche, in that we constantly point to Iran using the 
phrase ``the largest state sponsor of terror,'' and ask 
ourselves, what does that really mean?
    For those of us that have spent time on our Nation's 
battlefields in modern history, we know exactly that that looks 
like. It was Iranian hands that produced improvised explosive 
devices that literally killed thousands of our servicemembers 
in Iraq. It was Iranian hands that packed improvised explosive 
devises with nuts and screws and bolts and other pieces of 
shrapnel so that they would put so many holes in our 
servicemembers that we couldn't plug each and every one of them 
before they would hemorrhage out. That's the enemy that we are 
dealing with. As my colleague, Mr. Deutch, put it, the group 
that is sowing instability. That is how they sow that 
instability. And I ask that we keep that in perspective as we 
move forward in this dialogue.
    Thank you.
    Ms. Ros-Lehtinen. Thank you, sir, for your service.
    Mr. Schneider of Illinois.
    Mr. Schneider. Thank you, Madam Chairman. I want to thank 
you and the ranking member for calling this very important 
hearing. I thank the witnesses for sharing their perspectives 
and insights.
    Iran obviously remains a significant threat in the region, 
around the world, to our allies and to our interests. And while 
a nuclear Iran is without question one of the greatest threats 
we could face, Iran continues to, through its ballistic missile 
development, through its shipment of conventional arms, through 
its nefarious activities in the region, in the world, and as 
well as its violations of human rights, to remain a very bad 
actor.
    As the ranking member said, the JCPOA does not preclude us 
from taking actions to thwart Iran's ballistic missile program 
or to address their other nefarious actions around the world 
and in the region. I would take it a step further in fact: I 
believe we have a moral obligation to do just that. And I look 
forward to have this hearing to talk about how we can push back 
on Iran's behavior.
    Thank you, and I yield back.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Fitzpatrick of Pennsylvania.
    Mr. Fitzpatrick. Thank you, Madam Chairman.
    As a former FBI agent dealing with counterterrorism 
matters, it was often our job to find the nexus between 
terrorists and their state sponsors. And since the 1980s, the 
largest and most adept state sponsor of terrorism has been the 
Islamic Republic of Iran. Americans first became aware of this 
somber fact back in 1983 when an Iranian-sponsored terrorist 
group, Hezbollah, bombed the Marine barracks in Beirut, 
Lebanon.
    Since then, Iran has continued to support groups that 
target Americans abroad. From 1982 to 1992, Iranian-backed 
Hezbollah kidnapped and held captive some 104 hostages in 
Lebanon, including the CIA's Beirut station chief, William 
Buckley. After the invasions of Afghanistan and Iraq, Iranian 
intelligence and Revolutionary Guard Corps operatives provided 
training, arms, IED materials to insurgents.
    In recent years, the Iranian Revolutionary Guard Corps, 
specifically the shadowy Quds Force group, has attempted to sow 
continued instability throughout the Middle East. In Syria, the 
IRGC advisers have fought and died alongside of the forces of 
Bashar al-Assad.
    In Iraq, the commander of the Quds Force has been seen 
advising and assisting local Iraqi Shiite militias. Some of 
these militias, such as the Badr organization, have been 
accused of heinous human rights abuses. These militias have 
worsened the already heightened sectarianism between the Sunnis 
and Shiites in Iraq.
    Unfortunately, Iran's treachery has not been met with any 
increased sanctions or diplomatic pressure. Rather in recent 
years they have been awarded over $1 billion in frozen assets 
to Iran as part of the Joint Comprehensive Plan of Action, 
otherwise known as the JCPOA.
    The JCPOA has not only upset America's Sunni Arab allies, 
it has also emboldened Iran. Iran still continues to test 
ballistic missiles and continues to sow discord and 
sectarianism throughout the region. While it is important to 
continue the fight against ISIS in Iraq and Syria, we must 
remain vigilant and prevent Iran from establishing a crescent 
of influence throughout the region.
    I yield back, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Chairman Ros-Lehtinen and Ranking 
Member Deutch, for holding this important hearing on Iran's 
ballistic missile program.
    Without question, Iran's continued efforts to develop 
short-range and medium-range ballistic missiles and its 
ambition to develop intercontinental ballistic missiles pose a 
significant challenge to the United States and our allies. 
Development of these capabilities pose significant risks to 
U.S. forces and interests in the region, and it is also places 
Israel and our allies in the Persian Gulf in danger.
    Iran cannot be allowed to define international agreements 
and create increased uncertainty and disorder in the Middle 
East. At the same time, I believe it is essential that our 
response to Iran's defiance of international agreements not 
undermine the progress made under the Joint Comprehensive Plan 
of Action to curb Iran's nuclear program.
    It is my hope that the Trump administration will continue 
to work closely with our partners and allies to address the 
mutual challenges posed by Iran. I look forward to hearing from 
today's witnesses and hearing their insights on how to best 
respond to Iran's continued development of its ballistic 
missile program while ensuring that we do not move backwards in 
the international effort to prevent Iran from obtaining nuclear 
weapons.
    And with that, I thank the gentlelady and yield back.
    Ms. Ros-Lehtinen. Thank Mr. Cicilline.
    And now we turn to Mrs. Wagner of Missouri.
    Mrs. Wagner. Thank you, Madam Chairman.
    Last month a senior member of the Iranian Parliament's 
National Security and Foreign Policy Commission warned us that 
had the U.S. Army's Fifth Fleet in Bahrain will be, and I 
quote, ``razed to the ground if the enemy,'' the United States, 
``makes a mistake.'' These comments are particularly 
threatening in light of Iranian's denial of confrontations 
between its fast attack boats and U.S. ships in the Gulf last 
week.
    It is clear that Iran interprets reality, their own 
reality, however, as it chooses, and future incidents could 
easily end in shots fired. Iran is one of the United States' 
most severe security threats and the JCPOA--or, as we would 
call it, the Iran deal--has done little to mitigate dangerous 
conflict.
    I look forward to discussing this afternoon how we can best 
reduce tensions in the region and hold Iran accountable for its 
actions.
    And I thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you for an excellent statement.
    And now I am pleased to introduce our witnesses this 
afternoon.
    First, we are delighted to welcome back Dr. Kenneth 
Katzman, who serves as the senior Middle East analyst for the 
Congressional Research Service. He is a specialist on Iran, on 
the Persian Gulf states, and Afghanistan. Dr. Katzman is also 
an expert on Iran's Islamic Revolutionary Guard Corps, the 
IRGC, and he has written one of the preeminent books on the 
subject and is an expert on Iranian-backed groups operating in 
the Middle East. Prior to this, he was an analyst at the CIA. 
He is a foremost expert on Iran's Revolutionary Guard.
    We look forward once again to your testimony, Dr. Katzman. 
Welcome back.
    Next, we want to also welcome back Mr. Michael Eisenstadt. 
He is the director of the Military and Securities Study Program 
at the Washington Institute for Near East Policy. Prior to 
joining the institute, he served for 26 years as an officer in 
the U.S. Army Reserve.
    Thank you for your service, sir, and we look forward to 
your testimony, Mr. Eisenstadt.
    Finally, we would like to welcome Elizabeth Rosenberg, 
director of the Energy, Economics and Security Program at the 
Center for a New American Security. She served as a senior 
adviser to the U.S. Department of the Treasury, to the 
assistant secretary for terrorist financing and financial 
crimes, and then to the under secretary for terrorism financial 
intelligence. In these roles she has worked on tightening 
global sanctions on Iran.
    Welcome to our subcommittee, Ms. Rosenberg.
    And as I stated in my opening statement, your full 
statements will be made a part of the record. Please feel free 
to synthesize. Thank you.
    Dr. Katzman, we will begin with you while I clean up here.

   STATEMENT OF KENNETH KATZMAN, PH.D., SPECIALIST IN MIDDLE 
        EASTERN AFFAIRS, CONGRESSIONAL RESEARCH SERVICE

    Mr. Katzman. Thank you, Madam Chairwoman. And thank you, 
Mr. Deutch, for inviting CRS to testify today. I will summarize 
my statement. I ask that my full statement, which was cleared 
by the CRS review process, be included in the record.
    First, I will talk a little about what are Iran's 
objectives in its ballistic missile program. We think it is 
multifaceted: Iran's longstanding national identity, Iran's 
ideology, a response to perceived threats, and domestic 
political dynamics in Iran.
    In terms of national prestige and pride, developing a large 
sophisticated missile arsenal enhances Iran's prestige and 
international reputation.
    Ideologically, the transfer by the Quds Force, as was 
mentioned, the IRGC Quds Force, of shorter-range missiles and 
rockets to forces in the region, such as Hezbollah, Hamas, the 
Houthis in Yemen, appears to be aimed at boosting movements 
that share Iran's ideology, which is ultimately to overturn a 
power structure in the region that Iran's leaders feel was 
established by and serves the United States, Israel, and Saudi 
Arabia.
    Strategically, Iran's missile program can be interpreted as 
an equalizer to address Iran's conventional military weaknesses 
relative to the United States or any other regional power. 
Iran's supply of short-range missiles to Hezbollah, for 
example, gives Iran and Hezbollah the option to attack Israel. 
Iran's shipments to the Houthis in Yemen, which they have used 
on several occasions, position Iran to project power not only 
in the Gulf, where it traditionally projects power, but also 
now on the southern coast of the Arabian Peninsula.
    In terms of Iranian politics, Iran's President Hassan 
Rouhani might perceive that because he was the architect on the 
Iranian side of the JCPOA, he might be vulnerable to hardline 
elements who might ask him, ``Well, you have given up Iran's 
nuclear deterrent potential, how do you plan to defend the 
country?'' And missiles could be seen as his answer to that 
challenge.
    On the IRGC, the ballistic missile program, as was noted, 
is run by the IRGC Air Force. The IRGC Air Force originally was 
designed to become an air force, but Iran quickly learned that 
it was too expensive and too time consuming to develop another 
air force alongside the regular air force, so they assigned the 
IRGC Air Force to handle Iran's ballistic missile program.
    The Quds Force, as was noted, is a key instrument in Iran's 
attempts to reshape regional politics to its advantage through 
these weapons transfers of cruise short-range missiles.
    The IRGC also, because its charter is to defend the 
revolution, it interprets its mission as justifying its 
involvement in Iranian politics, which is really unique to 
militaries around the world. It is one of the only--I haven't 
studied all of the militaries in the world--but it is one of 
the only militaries that says its mission is to involve itself 
in politics.
    The IRGC Navy is amply supplied with cruise and coastal 
defense missiles, mostly purchased from outside suppliers. The 
IRGC Navy and the regular navy, again two navies, IRGC Navy and 
a regular navy, use these missiles to try to control Iran's 
territorial waters.
    Sanctions and others options. The JCPOA imposes no 
restrictions on Iran's missile program. U.N. Security Council 
Resolution 2231 calls upon Iran to refrain for a maximum of 8 
years from developing ballistic missiles designed to be capable 
of delivering nuclear weapons. And that is 8 years from October 
2015, so we are now really 6\1/2\ years until that restriction 
expires.
    There are a number of options available to the Trump 
administration to counter Iran's ballistic missile program. One 
option is additional sanctions. At their height in 2012-2013, 
sanctions had significant effect on Iran's economy and clearly 
contributed to its acceptance of the JCPOA. Yet, Iran continued 
to expand its nuclear and missile programs.
    One problem is the JCPOA essentially walls off Iran's main 
economic sectors from new sanctions, because there is language 
that Iran would consider it a breach if sanctions are 
reimposed, the ones that were lifted are reimposed, which makes 
it difficult, we think, to impose new proliferation-related 
sanctions, which would not touch the main economic sectors. If 
you don't touch Iran's main economic sectors, it might be hard 
to be effective in changing Iran's calculations.
    Another option would be to designate the IRGC as a foreign 
terrorist organization. It is difficult, however, to see how 
much additional actual pressure this would add on the IRGC that 
is not already imposed under existing sanctions, which are 
extensive on the IRGC.
    Other options could be enhancing U.S. and regional missile 
defense. And as far as military options, President Trump has 
said that all options are on the table, but he has not 
specified criteria or circumstances that could trigger 
potential U.S. military action on Iran.
    I look forward to your questions. Thank you.
    [The prepared statement of Mr. Katzman follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
                                  ----------                              

    Ms. Ros-Lehtinen. Excellent testimony. Thank you, Mr. 
Katzman.
    We have been joined by Mr. Chabot and Ms. Gabbard. So 
before we move to the witnesses, I wanted to see if they had an 
opening statement or anything that is on their mind.
    Mr. Chabot. Thank you for offering, but I think I will pass 
at this time.
    Ms. Ros-Lehtinen. Thank you. And I know you are on 
Judiciary that has a markup right now.
    Ms. Gabbard? Okay, thank you.
    So, Mr. Eisenstadt, you are up. It is still going on. Thank 
you, sir.

 STATEMENT OF MR. MICHAEL EISENSTADT, KAHN FELLOW, DIRECTOR OF 
MILITARY AND SECURITY STUDIES PROGRAM, THE WASHINGTON INSTITUTE 
                      FOR NEAR EAST POLICY

    Mr. Eisenstadt. Chairperson Ros-Lehtinen, Ranking Member 
Deutch, committee members, thank you for inviting me to address 
your committee today.
    As stated by several committee members in their opening 
statements, Iran has the largest missile force in the Middle 
East, consisting of thousands of short- and medium-range 
ballistic missiles and possibly land-attack cruise missiles. 
Although its missiles are conventionally armed, many could 
deliver a nuclear weapon if Iran were ever to acquire such a 
capability in violation of its NPT obligations and JCPOA 
commitments.
    While the recent nuclear accord with Iran will likely defer 
such a possibility, it did not impose new constraints on Iran's 
missile program. On the contrary, Security Council Resolution 
2231, which gave international legal force to the nuclear 
accord, loosened them and included provisions for the lifting 
of these constraints in 8 years, if not sooner.
    Missiles and rockets are central to Iran's way of war and 
that of its proxies. Missiles permit quick, flexible responses 
during rapidly moving crises. Missile salvos can generate 
greater cumulative effects on enemy morale and staying power in 
a shorter period of time than can terrorist attacks. For these 
reasons, Iran's missile forces are the backbone of its 
deterrent and warfighting capabilities.
    The United States and its regional partners have been 
investing significant resources in missile defenses in recent 
decades. However, the continued growth in size and accuracy of 
Iran's missile force raise concerns that it could saturate and 
overwhelm missile defenses in the Gulf and Israel.
    This problem will only increase with the passage of time. 
At current production rates, Iran's missile force could more 
than double in size by the time the major limits imposed by the 
JCPOA are lifted in the year 2030.
    Iran's growing missile force, in tandem with its growing 
offensive cyber capabilities, will enable it to target the 
critical infrastructure and missile defenses of our partners 
with a powerful one-two punch in the physical and virtual 
domains, while putting American military bases and forces in 
the region, including our carrier strike groups, at risk.
    An Iranian nuclear missile force would be highly 
destabilizing. Short missile flight times between Iran and 
Israel, the lack of reliable crisis communication channels, and 
the impossibility of knowing whether incoming Iranian missiles 
are conventional or nuclear could spur Israel and any other 
regional nuclear states that might emerge in the interim to 
adopt a launch-on-warning posture, undermining the prospect for 
a stable nuclear deterrent balance in the region.
    So what can be done to deal with this threat? Sanctions, to 
the degree that they complicate Tehran's ability to procure 
equipment and special materials for its missile program, to 
include cruise missiles, are helpful and underscore 
Washington's commitment to addressing the threat. They are an 
important element of U.S. policy.
    Washington should also continue to press allies, partners, 
and others, especially states that are members of the Missile 
Technology Control Regime, to tighten enforcement of export 
controls to prevent Iran from acquiring technology, equipment, 
and special materials that are essential to its missile 
program.
    The U.S. also needs to further strengthen its deterrent 
posture. To this end, it should continue to build up coalition 
missile defenses in the Middle East. After all, Iran's missile 
force is a problem to which there is a viable solution, albeit 
an extremely costly one. And it should continue to strengthen 
the ability of U.S. and partner nations to deliver long-range 
precision fires and conduct aerial strikes against Iranian 
missile bases and launchers to attrite Iran's missile forces 
``left of launch.''
    These capabilities also ensure that the U.S. and its 
partners have the ability to respond in kind to Iranian missile 
strikes.
    But the U.S. response must go beyond missiles. The United 
States needs a comprehensive strategy toward Iran that pushes 
back against destabilizing Iranian regional activities, 
strengthens the JCPOA, and deters Iran from building an 
industrial-scale nuclear infrastructure or attempting a nuclear 
breakout down the road.
    To this end, the United States should respond in a more 
assertive fashion to Iranian naval harassment in the Gulf, 
increase efforts to interdict Iranian arms transfers to 
regional proxies and partners, ramp up support for non-Salafist 
opposition groups in Syria, and commit to a long term defense 
partnership with Iraq.
    The intent of these steps would be to restore Washington's 
credibility in Tehran and alter Iran's cost-benefit calculus 
vis--vis the United States, inducing it to greater caution in 
areas where the possibility of a conflict with the United 
States exists.
    As for the nuclear deal, it would be a mistake to tear it 
up. This would isolate the United States, further complicate 
the reimposition of sanctions should it prove necessary, and 
provide Iran with a pretext to resume formerly proscribed 
nuclear activities.
    Rather, the U.S. should strictly enforce the JCPOA, try to 
address its shortcomings, and maximize the productive use of 
the decade-plus bought by the agreement.
    One of the main flaws of U.S. policy toward Iran is that it 
pursued a time-buying approach, the JCPOA, without a strategy 
for how to use the time gained. The United States needs to put 
together such a strategy now by, first, addressing loopholes 
and shortcomings in the existing nonproliferation and 
safeguards regime; assembling a broad coalition to persuade 
Iran to forgo its option to build an industrial-scale nuclear 
infrastructure once JCPOA-mandated restrictions are lifted 
after 15 years; and perhaps most importantly, leveraging the 
credibility conferred by its pushback against destabilizing 
Iranian regional policies to alter Tehran's nuclear risk 
calculus, thereby bolstering America's ability to deter a 
future Iranian nuclear breakout.
    I look forward to discussing these matters with you. Thank 
you.
    [The prepared statement of Mr. Eisenstadt follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
    
    
                         ----------                              

    Ms. Ros-Lehtinen. Thank you, sir.
    Ms. Rosenberg.

    STATEMENT OF MS. ELIZABETH ROSENBERG, SENIOR FELLOW AND 
DIRECTOR, ENERGY, ECONOMICS AND SECURITY PROGRAM, CENTER FOR A 
                     NEW AMERICAN SECURITY

    Ms. Rosenberg. Thank you, Chair Ros-Lehtinen, Ranking 
Member Deutch, distinguished members of the committee. I 
appreciate the opportunity to testify today on the topic of 
Iran ballistic missile and IRGC sanctions.
    International sanctions on Iran's ballistic missile 
activities and the IRGC are an integral component to the broad-
ranging and powerful financial measures that target and isolate 
Iran for its nefarious activities. They are at the heart of 
U.S. sanctions on Iran and set an appropriately aggressive tone 
for Washington to pursue its interests with this destabilizing 
regime.
    Congress has provided critical leadership in this effort to 
target Iran's missile activity and the IRGC, and I applaud this 
important work. I encourage you to continue this attention to 
make it clear to Iran that while the international community 
has entered into a strong agreement with Iran over its nuclear 
program, U.S. policy leaders will aggressively hold Iran 
accountable for its threatening nonnuclear activities.
    The United States has imposed sanctions on the IRGC and 
Iran's ballistic missile activities specifically to highlight 
Iran's weapons proliferation, human rights abuses, including 
through cyber-enabled means, and in the case of the IRGC Quds 
Force, its support for terrorism.
    Even after the nuclear deal, of course, many sanctions on 
Iran's ballistic missiles development and the IRGC remain 
firmly in place. U.S. sanctions on Iran's ballistic missile 
activity seek to expose and counter the agencies and the 
entities that develop and deploy Iran's missile program. Along 
with regional missile defense capabilities and the U.S. 
military's significant presence in the Middle East, as has been 
mentioned, they are an integral part of the United States 
effort to deter Iran from using missiles to threaten its 
neighbors and to protect U.S. interests in the region.
    The Iranian missile arsenal is the largest and most lethal 
in the Middle East, and it is fundamental to the Iranian 
strategy to project power and influence.
    Iran continues its dangerous and provocative missile tests, 
as you mentioned in your statement, in a show of force. 
However, the greatest threat that this arsenal presents is the 
potential for missiles to serve as delivery systems for nuclear 
weapons, of course.
    Financial sanctions imposed by the United States on the 
IRGC more broadly than just on its missile program target this 
proliferation activity and its human rights abuse, and in the 
case of the Quds Force, as I mentioned, its support for 
terrorism. These various sanctions are important, given the 
political prominence of the IRGC in Iran and in the Middle 
East, and its extensive role in a host of Iranian commercial 
sectors.
    However, they have a limited financial impact given the 
relatively limited links between the U.S. and the Iranian 
economies and the broad avoidance by Iranians of the U.S. 
dollar as a means to limit their sanctions exposure. Indeed, 
the IRGC has been able to function during the last several 
years of most severe international sanctions pressure on Iran 
before and leading up to implementation day for the nuclear 
deal.
    The United States has a variety of options to expand 
sanctions pressure on Iran's ballistic missile activities and 
the destabilizing and threatening role of the IRGC.
    First, the administration should aggressively go after 
implementing existing sanctions authorities, targeting Iran's 
ballistic missile procurement networks and the agencies 
responsible for development and deployment of the missile 
program.
    Second, the administration should immediately embark on a 
concerted and broad-ranging sanctions campaign to expose and 
target the dangerous and insidious activities of the IRGC 
within and beyond the borders of Iran, including exposing the 
financial activity and holdings of the IRGC, its agents, and 
instrumentalities and regional terrorist proxies wherever 
feasible.
    The strongest and most successful approach to countering 
Iranian threats is through continued multilateral action. Where 
European sanctions on Iranian ballistic missiles and the IRGC 
do not match those of the United States, U.S. policymakers 
should strongly urge EU counterparts to align their financial 
measures.
    U.S. leaders should also work with U.N. member states to 
add new arms or missile proliferators to sanctions lists where 
there is sufficient information.
    Congressional leaders are well placed to outline the 
contours of such a strategy and to urge aggressive 
administration implementation. And congressional members can 
also set the right expectations for successful multilateral 
engagement, including renewed sanctions pressure, and also a 
fresh look at force posture arrangements and intelligence and 
covert activities.
    Thank you very much for the opportunity to speak with you 
today, and I look forward to your questions.
    [The prepared statement of Ms. Rosenberg follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
    
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you to the three of you. Excellent 
testimony.
    Dr. Katzman, I will begin with you. You stated in your 
written testimony that some are interpreting the JCPOA as 
essentially walling off core economic sectors in Iran, like 
energy, banking, manufacturing, from new sanctions. I believe 
that Iran's core economic sectors are absolutely eligible for 
impact by nonnuclear-related sanctions under the JCPOA because 
the IRGC is in control of Iran's ballistic missile programs, as 
well as so much of Iran's economy. Any effective sanctions 
targeting the missile program will by necessity impact these 
core economic sectors.
    So do you believe that these economic sectors are walled 
off from nonnuclear sanctions?
    Mr. Katzman. Thank you, Congresswoman.
    The sanctions that were lifted basically were secondary 
U.S. sanctions that force major foreign corporations to choose 
between doing business in Iran with its major economic sectors 
or doing business in the United States. Those sanctions were 
lifted in concert with the JCPOA, and we have seen foreign 
corporations now return.
    Some of the big energy majors have returned and are talking 
about drilling for oil again. Iran's ships are patrolling the 
seas again, delivering oil. Iran's oil exports are back to 
where we were in 2011. Iran is back into the international 
banking system. It has been relinked to the SWIFT electronic 
payment system. So the Iranian economy has grown, possibly as 
high as 6 percent in the 1 year since the sanctions were 
lifted.
    So if those sanctions cannot be reimposed like that, it may 
be difficult to cause Iran to make the calculations on missiles 
or human rights or terrorism like was made when they accepted 
the JCPOA. Their economy was hurting so badly that they felt 
they had to accept the JCPOA. If you cannot reimpose those 
sanctions at that extensive level, they might not think twice 
about some of these other activities, yeah.
    Ms. Ros-Lehtinen. Thank you, sir.
    And, Mr. Eisenstadt, can you please outline for us the 
IRGC's involvement in Iran's economy? Which sectors does it 
have a stake in? And how are they connected to Iran's ballistic 
missile program? And how can our sanctions against the IRGC and 
Iran's missile program be more effective?
    Mr. Eisenstadt. Madam Chairperson, this is not an area that 
I am really a specialist in, so I will defer for the most part, 
except to say my understanding is that the IRGC has involvement 
throughout just about every sector of the economy. They either 
have full ownership or partial ownership of firms throughout 
the economy. Many of them are in sectors that are important, 
that have a potential contribution to make to the missile 
program, whether it be related to heavy industry, mining, 
production of materials that are important potentially for the 
missile program.
    But showing the connection between those industries and the 
missile program, I think at least in the public domain, is the 
missing link. And I think therefore any new sanctions regarding 
the missile program that mandates reporting that exposes these 
connections would be very helpful.
    So let me just say, my approach to sanctions on the 
missiles, Iran's missile program, is to look at how we can 
disrupt their ability to acquire special materials, technology, 
and the like from overseas. And we see in pictures that they 
continue to publish of missile production facilities that they 
are getting production technology that they should not be 
getting under the MTCR, Missile Technology Control Regime. So 
clearly some of our allies have more work to do in terms of 
tightening their export controls. So there is more work to be 
done in that area.
    Ms. Ros-Lehtinen. Thank you.
    I don't know if Ms. Rosenberg or Dr. Katzman wanted----
    Ms. Rosenberg. I would be happy to speak to this question, 
as well as to the question you posed to Mr. Katzman.
    Ms. Ros-Lehtinen. Yes, please.
    Ms. Rosenberg. I would like to affirm your interpretation 
of the JCPOA, which I also agree does not preclude the United 
States from pursuing sanctions pursuant to nonnuclear areas of 
its concern with regard to Iranian behavior. So should there be 
an entity that is engaged in significant acts of support for 
terrorism or regional destabilization, the United States can 
and should pursue sanctions against such an entity. That is 
different from going after sectors of the Iranian economy which 
were broadly delisted in the nuclear agreement.
    Speaking to the areas of the economy in which the IRGC is 
involved, they are reported to be quite extensive: Heavy 
industry, engineering, construction, energy, and shipping. 
However, as was mentioned, it is difficult to trace the 
beneficial ownership link between the IRGC and many of its 
entities in the Iranian economy for various reasons, but such 
legal requirements for disclosure of this corporate information 
are not very good in Iran. In fact, that has been pointed out 
by professional institutions in the financial services sector.
    One of the most effective ways that the United States can 
go after the IRGC for its concerns relating to the IRGC have to 
do with identifying further agents, entities, companies, 
fronts, commanders, and business executives in these companies 
in the economy that work on behalf of the IRGC.
    Ms. Ros-Lehtinen. Thank you, Ms. Rosenberg.
    Dr. Katzman, you wanted to comment on that?
    Mr. Katzman. I would just comment, one of the biggest 
construction companies in Iran is called Khatam al-Anbiya, 
which means seal of the prophet. It is called GHORB. It is a 
designated sanctioned entity. It is very large, thousands of 
employees. It was started by the IRGC. In fact, it grew out of 
the IRGC's--like their Army Corps of Engineers. It was the 
IRGC's construction wing during the Iran-Iraq war, and then it 
was spun off as essentially a construction company. It is very 
large and it is a designated entity and it is sanctioned, yes.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Deutch.
    Mr. Deutch. Thanks, Madam Chairman.
    Dr. Katzman, do you want to just continue with that? So it 
is already sanctioned and so what more can be done with a huge 
entity like that.
    Mr. Katzman. Well, I mean, I think the point is, when the 
JCPOA was implemented last January, 2016, hundreds of entities 
were delisted from U.S. sanctions. In other words, they were no 
longer subject to U.S. sanctions. But these were mainly, again, 
as I mentioned, energy companies, shipping, shipping insurance, 
banks, the Central Bank, Iran Air--Iran's civilian economy, 
delisted.
    The IRGC-related companies, like GHORB, other IRGC 
affiliates, missile entities, anything to do with terrorism, 
IRGC commanders, I mean, hundreds of entities remain designated 
for sanctions, and it is in these areas, proliferation, 
terrorism, human rights. But the civilian economy, Iran's 
civilian economy, the energy sector, banking, what I mentioned, 
transportation, sanctions were lifted.
    And under the JCPOA, Iran has said that if the sanctions 
that were lifted are reimposed, Iran would consider that a 
breach and it would cease implementing its commitment. So, for 
example, if Iran's Central Bank were again sanctioned to the 
extent that it was cut off from the international banking 
system, I think I have a lot of confidence in saying Iran would 
say the deal is finished.
    Mr. Deutch. Even if the sanctions had nothing to do with 
proliferation activity?
    Mr. Katzman. Correct. The language in the JCPOA is 
sanctions that were lifted cannot be reimposed for other 
justifications, nonnuclear. In other words, terrorism, human 
rights, these other things, cannot be reimposed under other 
justifications, right.
    Mr. Deutch. I wanted to just follow up on the concept of 
multilateral sanctions, which are still I think the best 
approach, and the frustration of the Security Council to act 
against the ballistic missile tests. This has now gone on in 
two administrations. And we raised the tests at the Council and 
Russia and China played lawyer for Iran and argued that the 
tests aren't prohibited under 2231.
    So if U.N. sanctions aren't an option, what about the EU? 
And what is the best argument for our EU allies that adopting 
strong sanctions, ballistic missile sanctions, aren't just of 
paramount importance to international security, but that they 
also don't violate the deal--at a time, we should point out, 
when the EU is interested in vigorously enforcing the deal at 
least to ensure that the deal remains in place?
    Ms. Rosenberg.
    Ms. Rosenberg. Thank you for the question.
    I think there is a lot of running room for the United 
States to work with the EU on sanctions and on further 
sanctions concerning the IRGC, for example. The EU targets the 
IRGC under its own sanctions and some of those remain in place 
still.
    It is difficult for the U.N. Security Council, for a number 
of reasons mentioned already this afternoon, to go after these 
Iranian missile tests and call them a violation. It doesn't 
meet the test of the language in the U.N. Security Council 
resolution and furthermore to the extent that Iran has----
    Mr. Deutch. They argue that it doesn't meet the test, that 
is the role they play.
    Ms. Rosenberg. Correct. So if it is difficult to find a 
violation at that level, then surely the United States and 
Europe can move forward further here.
    I think for the United States offering leadership by 
designating additional fronts in the network, the procurement 
network related to the ballistic missile program and working 
with the EU to share information and asking them to match the 
sanctions in the EU, by the EU Commission, is a perfectly 
viable, reasonable, and important strategy for the U.S. to 
take.
    Mr. Deutch. Thank you.
    Mr. Eisenstadt.
    Mr. Eisenstadt. If I could just add, the Islamic Republic 
has itself said that the U.N. Security Council resolution is 
something separate than the nuclear deal and they don't 
consider it binding.
    We should say, well, if we are trying to argue for our 
allies to join us on sanctions related to the missiles, we 
should say that, look, the Islamic Republic itself says that 
this is not part of the deal and, therefore, there should not 
be consideration with regard to our allies. And also we share 
concern with regard to freedom of navigation in the Gulf and 
the security of the Gulf and this impinges on that. So I think 
we have a good argument to make with regard to our European 
partners.
    Mr. Deutch. And, Madam Chairman, if I could ask just one 
other question, and that is in order to weaken the IRGC's 
involvement in terrorism we have to cut off their access to 
Hezbollah. And the concern that I know we all share is that as 
long as Russia continues to turn a blind eye to what Iran is 
doing in Syria, it makes that really difficult.
    Rouhani was just in Moscow this week. Russia, it seems, has 
accomplished its goal in Syria, being firmly entrenched now in 
the Middle East. It continues to aid Iran, not just in Syria, 
but in the uranium sale, the S-300 sale, for reasons that 
appear to be only to serve their own self-interest or being 
bulwarks against the United States.
    The question I would just put out to you is, if the United 
States, as the President has now told us repeatedly, wants 
closer cooperation with Russia, how do we get tough with Iran 
at the same time? I didn't mean to stump you.
    Yes, Ms. Rosenberg.
    Ms. Rosenberg. I don't think that these necessarily must be 
inconsistent. And whether you appreciate or not the example of 
the previous administration, there was a demonstration of, on 
the one hand, working in coordination with Russia and the U.N. 
process around the nuclear deal, and working aggressively with 
Russia when it came to application of new sanctions with regard 
to its activities in Ukraine.
    There is no reason why there cannot similarly be a 
variegated strategy under this administration which could seek 
to coordinate with Russia as appropriate, perhaps on Syria-
related issues, and push back more firmly in this case with 
regard to support for Iran's ballistic missile program.
    Mr. Deutch. And Iran's support of Hezbollah and Syria.
    Ms. Rosenberg. Absolutely.
    Mr. Eisenstadt. If I could just add to that. I mean, we 
have worked productively in the past with regard to, say, for 
instance, the S-300 missiles, delaying the delivery of those 
for quite some time.
    The problem is, I think, given the current trajectory of 
U.S.-Russian relations--and the fact that there is probably 
some daylight between Russia's position toward the conflict in 
Syria and Iran's position--but given the general trajectory of 
U.S.-Russian relations, I think it will be increasingly 
difficult in the future because of all of the stuff that is 
going on with regard to hacking and Ukraine and the like, it 
will be increasingly difficult to find areas to cooperate on. 
But in principle it is a possibility.
    Mr. Katzman. If I can just add. In my assessment, it is 
going to be extremely difficult to get Iran and Hezbollah to be 
separated. Iran sees Hezbollah as the most prominent outgrowth 
of the Islamic revolution of 1979. Iran will do anything to 
defend Hezbollah.
    I would argue Iran is in Syria in a big way because it 
wants to protect that weapons channel to Hezbollah. The IRGC 
created Hezbollah's military wing. The Quds Force grew out of 
the IRGC's contingent that went to Lebanon to create 
Hezbollah's military wing.
    The connection between Iran and Hezbollah is organic. It 
would take a tremendous heavy lift to separate these two 
entities, in my estimation.
    Ms. Ros-Lehtinen. Great questions. Thank you so much, Mr. 
Deutch.
    Mr. Mast of Florida.
    Mr. Mast. Mr. Eisenstadt, you spoke in your written 
testimony about the way Hamas and Hezbollah use their rockets 
against Israel and that is a useful template for what could 
happen in the future. And I wanted to start with something 
backing up a little bit before that.
    To what would you attribute this? You know, the United 
States of America mastered this ballistic technology in the 
1950s, 1960s, China did as well, you know, Russia, 1950s, 
1960s, 1970s. What would you provide the greatest attribution 
to, to say this far in the future, 2017, Iran still hasn't 
mastered that? Why would you say they still haven't mastered 
that?
    Mr. Eisenstadt. One thing that we, I think, often 
underestimate is exactly how hard it is to even create 
technologies that we developed in the 1940s and the 1950s for 
many developing countries today. And so, many proliferators are 
in some ways along the--if you look at it in terms of 
proliferation timeline in terms of their capabilities, they are 
still in the 1940s in many ways.
    But you know what, to use a term that my friend Peter 
Zimmerman coined, while pursuing ``bronze medal technology,'' 
from their point of view and in terms of their needs it is good 
enough, because we have seen time and again that even Hamas, 
with rockets made in home, kind of garage workshops, until the 
Israelis deployed the Iron Dome, were able to terrorize 
populations in southern Israel and to harass these people and 
cause casualties.
    So now with the development of Israeli missile defenses, 
they have developed the ability, at least in--well, in theory 
and in practice, to intercept these capabilities, but the 
Iranians are producing them in such numbers and they are cheap 
relative to the price of defenses, that they have the ability 
to saturate defenses.
    And the Israelis are developing a layered approach, that 
they have the low end capabilities now with Iron Dome, they 
have high end with the Arrow, in the middle range they are 
developing David's Sling and deploying it this year. But most 
of----
    Mr. Mast. To pause you. Are you saying that it was 
basically pure dumb luck or a lack of intelligence on their 
part that didn't get them to this point? What about what we 
have done in modern history, prior to the JCPOA, has prevented 
them to getting to this point? Prior to that, what prevented 
them from getting this?
    Or even talking about proliferation. You know, the first 
nuclear weapon, we didn't even have to test Trinity. We knew if 
you fire one piece of fissile material into another, you are 
going to get a critical mass. We didn't have to test it.
    What has prevented them, previous to the JCPOA, to getting 
to that point?
    Mr. Eisenstadt. It is a combination of efforts to disrupt 
what they were doing by us, arms control, export control 
regimes, efforts to try to prevent the spread of this 
information, although now this stuff is pretty much out there. 
But it is one thing to know it. It is another thing to actually 
be able to apply in practice. And you need to have a very large 
human manpower base, human capital base that is capable of 
handling complex projects and integrating all the different 
aspects of it.
    We often under-estimate how difficult it. How many 
countries in the world produce fighter jets or even cars? Iran 
does produce cars now, but for many years it was kind of knock-
down kits that they imported from Peugeot or whatever.
    So we often underestimate how difficult it is, these kind 
of complex industrial tasks. So a lot of it is just that it is 
extremely hard. We have been doing it for so long--we have what 
people call tacit knowledge--because we have a lot of people 
who have learned how to do this kind of thing. But if you are 
starting from scratch, it is very difficult to be able to 
master the full range of capabilities needed for a robust 
ballistic missile program.
    Mr. Mast. Where would you say access to the world market 
puts them in terms of advancing toward what they have yet been 
able to master? That is China, Russia, U.S., a number of other 
countries.
    Mr. Eisenstadt. Yes, it is very important, because in the 
1990s they benefited from Russian help in terms of individuals 
who were formally associated with Russia's missile programs. 
Their Shahab-3 missile was based on the North Korean Nodong. So 
they have gotten help from the North Koreans, the Russians, and 
also China was involved in their solid fuel rocket program.
    So they have benefited from foreign assistance and they 
probably still do. Every program around the world has benefited 
from foreign assistance. But they have reached a point now 
where they have in some ways surpassed their former teachers in 
North Korea and they are generally considered to be more 
capable in this area than the North Koreans in most areas in 
the missile realm.
    But getting know-how and materials from abroad is still 
very important for their program, and there are some areas 
where I think they will continue to benefit. For instance, 
penetration aids and countermeasures, which as far as we know 
they don't really put on their missiles yet. That is the next 
step and that will make missile defense much harder if they are 
able to jam and put out countermeasures to the missile 
defenses.
    Mr. Mast. We didn't get into MIRV or anything else, but my 
time has expired.
    Ms. Ros-Lehtinen. Thank you, Mr. Mast.
    I will follow up with some of your questions. Mr.----
    Mr. Suozzi. Suozzi.
    Ms. Ros-Lehtinen. Suozzi.
    Mr. Suozzi. You have got it.
    Ms. Ros-Lehtinen. I have got a really difficult name. So I 
hope you don't get insulted by Suozzi.
    Mr. Suozzi. Suozzi, in Italian.
    Madam Chair, I want to thank you very much for your 
leadership here, as well as the ranking member.
    I want to thank the witnesses for their thoughtful insight 
and analysis. It really is a great education that you are 
giving us here today.
    I think there is broad agreement in this room that there is 
a serious problem with Iran's ballistic missile program and 
that something has to be done. It is a question of, what is the 
proper authority, and how are we going to do it, and who are 
our partners going to be in that process? But I think that 
there is broad agreement.
    I want to ask a question about timing. The elections are 
coming up in Iran in May. I would like to just hear the benefit 
of your analysis regarding the politics of Iran and how the 
President, Rouhani, and the Supreme Leader and the IRGC and all 
the different players that are involved here--the regular 
military--just tell me a little bit about the intersection of 
all them and then how what we do could or could not affect that 
outcome.
    Mr. Katzman. I will start with that. The regular military 
that existed under the Shah, it is still there. It does not 
interfere in politics at all. In fact, during the uprising of 
2009, the regular military issued a letter saying, ``Do not ask 
us to go repress these demonstrators.'' So they are not a 
factor.
    Now the IRGC, as I said in my statement, is a factor.
    Mr. Suozzi. Does the regular military report to the 
civilian President?
    Mr. Katzman. It reports up to the general headquarters that 
reports to the Supreme Leader, actually.
    Mr. Suozzi. To the Supreme Leader. Okay.
    Mr. Katzman. Yes. The Supreme Leader is technically the 
commander in chief of the whole Armed Forces, right.
    The IRGC does interfere in politics, and they have done so 
on several occasions. In fact, it was widely reported, and 
there seems to be agreement, that it did put Mr. Ahmadinejad 
over the top in 2005. He came out of nowhere. But the IRGC 
deployed the Basij. They leafleted for him. They drove people 
to the polls. And they view it as their mission to interfere in 
politics to defend the revolution.
    Now, I think most experts--and I would say I am in this 
camp too--think if it is a free and fair election, Mr. Rouhani 
is the favorite. He ran on a platform of delivering Iran from 
its international isolation. He negotiated the JCPOA. He did 
bring them, to some extent, out of their isolation. So the 
people that voted for him in 2013 seem to probably vote for him 
again.
    Now, the issue is the hardliners. There was some thinking 
earlier on that the hardliners would maybe just not even 
contest it so much. But no. They seem to be organizing. They 
are trying to unify around one conservative hardline candidate 
to oppose him.
    Mr. Suozzi. Who is that?
    Mr. Katzman. Well, they are having some caucuses, for the 
first time, they are actually having some meetings to try to 
vote on one unified candidate. The issue is there is one 
particular figure who the Supreme Leader favors a lot who they 
might choose. And that would be significant because, if this 
individual runs, the regime might be tempted to try to, let's 
say, interfere on his behalf, to put it mildly. He is the 
leader of the Quds Razavi Foundation in Mashhad. Khamenei 
appointed him last summer. And Khamenei appears to favor him as 
the next Supreme Leader. So engineering him to the Presidency 
would give him an advantage to be the next Supreme Leader.
    Mr. Eisenstadt. If I could take a----
    Mr. Suozzi. I am sorry. Does it help or hurt for us to do 
something before May?
    Mr. Katzman. You mean in terms of sanctions? Well, probably 
the hardliners, the Supreme Leader, they have been criticizing 
Rouhani to some extent that he--they are saying he has not 
delivered all the promises of sanctions relief. It is possible 
that new action----
    Mr. Suozzi. I am running out of time.
    Mr. Eisenstadt, go ahead.
    Mr. Eisenstadt. I will just be quick. Iran's domestic 
politics has its own internal logic. And our ability to 
influence it in ways that redounds to the benefit of American 
policy has generally worked out, you know, just the opposite 
that we had hoped. And I would just say we could probably do a 
lot to hurt things. But there is not a lot we can do to help 
the people that we want to help.
    You know, President Khatami, when he was elected in 1997, 
we had hopes that this would herald a change. He was undercut 
by his domestic opponents. President Bush wanted regime change, 
but the people didn't rise up. They rose up in 2009, when we 
had a President who wanted to engage the regime there.
    And with the JCPOA, we were hoping that the nuclear 
agreement would lead to a broadened--you know, a general 
improvement in the relations between the two countries. But 
what we have seen is in fact it has probably emboldened those 
who are against the improvement of relations. So our ability to 
game this in a way to achieve--to advance our goals has been 
shown to be very limited, if nonexistent.
    But there are things we can do that could harm things if we 
act in a heavy-handed way sometimes. But often we can't really 
help the people we want to help usually.
    Ms. Rosenberg. I will just be very brief in responding to 
this. I would like to agree with the comments just made by my 
colleague, Dr. Eisenstadt, that in fact it is very difficult 
for U.S. policymakers to specifically engineer particular 
political outcomes in Iran. We should be very humble about 
that.
    I don't think that undertaking sanctions enforcement using 
existing authorities will meaningfully sway Iranian politics. 
It doesn't actually change the broader U.S. posture or the set 
of authorities that are in place. Nevertheless, there is no 
specific need to do something now versus 60 or 90 days from 
now, absent a particular provocation against which the U.S. 
should push back.
    There are plenty of opportunities. The United States has an 
ability to use them whenever it wants.
    Mr. Suozzi. Thank you very much.
    Ms. Ros-Lehtinen. Thank you very much, sir. Excellent 
questions and answers.
    Now we turn to Mrs. Wagner--Ambassador Wagner.
    Mrs. Wagner. Thank you, Madam Chairman.
    Mr. Eisenstadt, the rules of Iranian cyber warfare seem to 
deviate I think from the codes that guide the world's five 
cyber powers: The U.S., U.K., Russia, China, and Israel. 
Iranian hackers do not just engage in espionage and gather 
intelligence; they try to do harm. There were some reports last 
spring that there had been a lull in Iranian cyber activities 
since the nuclear deal. Can you discuss, to the best of your 
ability, how Iranian cyber strategy has shifted in the wake of 
the nuclear deal and how Iran will use destructive cyber 
capabilities in the future?
    Mr. Eisenstadt. Yeah. A lot of this will be necessarily 
speculative. My understanding is that, during the negotiation 
of the JCPOA, they actually held in abeyance a lot of their 
offensive cyber activities. After its conclusion, my 
understanding is that there was--they resumed a lot of their 
net reconnaissance activities. In other words, they were kind 
of snooping around to try to gather information about critical 
infrastructure in the United States and elsewhere, both 
probably to send the signal that they have the capability to 
harm us in this domain in the future should relations 
deteriorate and also to build up their cyber target folders.
    And a lot of this also involved spear-phishing activities 
against personnel involved in American Iran policy and the 
like.
    There were also some attacks directed against Saudi Arabia 
over the winter, which probably are related to the worsening or 
the downturn in relations between Saudi Arabia and Iran.
    So, from Iran's point of view, a lot of their activities 
are in response to aggressive action either by the United 
States and Israel, for instance, with regard to Stuxnet, or 
other activities that were done, for instance the sanctions 
against their financial sector; so they attacked our financial 
sector with denials of service activities, and, likewise, they 
engaged in attacks on Saudi Aramco and Qatar's RasGas in 
response to our sanctions on their oil industry a few years 
ago.
    So, from their point of view, a lot of it has been 
defensive thus far, but I have no doubt that if there was a 
kind of deterioration in relations with Iran--from their point 
of view, we live in a cyber glass house. We have massive 
critical infrastructure which, right now, we don't have the 
ability to protect. Their capabilities are not advanced; they 
are kind of a third-tier cyber power. But I think they have 
great potential in this area. But this is an area which, in the 
future, I think will be much more important for them. Right 
now, there is not probably--they could do some--they could be a 
nuisance at this time, and perhaps more.
    Mrs. Wagner. I have great concerns about our future and 
where we may be going with this.
    Moving on, it seems that Erdogan has long been loath to 
criticize Iranian ballistic missile and nuclear programs. The 
complicated relationship between Turkey and Iran has become 
more concerning with the Moscow Declaration and the trial of 
Turkish-Iranian sanctions-buster Reza Zarrab in New York.
    Ms. Rosenberg, given the arrest of Turkish sanctions-
busters in the U.S. and the information that courts may 
uncover, do you think we will find that the Turkish elite have 
extensive Iranian ties?
    Ms. Rosenberg. Ties to Iran or ties to sanctions evasion?
    Mrs. Wagner. Yes.
    Ms. Rosenberg. That is a subject that has been of great 
concern and focus for U.S. policy leaders and for the U.S. 
intelligence community. There has been quite a lot of 
investigation into this, appropriately so, given economic 
linkages and also political ties. I should say that Turkey is 
not singled out in this category. There are other jurisdictions 
where linkages between high-level officials and economic 
linkages put----
    Mrs. Wagner. But you would say there are ties there?
    Ms. Rosenberg. There are links, and the concern is they may 
be more insidious than merely political or commercial ties 
could suggest.
    Mrs. Wagner. Interesting. Okay.
    So, Mr. Eisenstadt, in my short time here--or others on the 
panel--to what extent does Iranian money fund terror groups 
operating inside of Turkey?
    Mr. Eisenstadt. I will defer to my colleagues. I don't 
follow Turkey very closely. So I will defer to others on this.
    Mr. Katzman. You are talking about Kurdish groups?
    Mrs. Wagner. Yes.
    Mr. Katzman. The IRGC has some relation with the Iraqi 
Kurds. PKK--not sure--not really a close connection there.
    Mrs. Wagner. Ms. Rosenberg? I know my time is up.
    Ms. Rosenberg. I have nothing further to add.
    Mrs. Wagner. Thank you very much, Madam Chair. I yield 
back.
    Ms. Ros-Lehtinen. Thank you very much, Mrs. Wagner. You 
make a valuable contribution to our subcommittee.
    Mr. Kinzinger, thank you for your service also on our 
subcommittee and to our Nation.
    Mr. Kinzinger. It is good to be back. Thanks.
    Thank you all for being here. Obviously, I think it comes 
as no surprise I thought the JCPOA was a pretty bad deal. I 
think it really just provides, as we look at it, a roadmap for 
a timeline on how to acquire nuclear weapons eventually. And 
when it comes to playing the long game, I think Iran is okay 
with saying, ``We can have weapons in 10 or 15 years,'' or the 
threat of weapons is almost, in many cases, as good as having 
them.
    But I also think now, obviously, we are in a situation 
where to redevelop, despite the discussion of snapback 
provisions and sanctions, which we knew would never happen, 
being able to develop a coalition of people to reengage Iran 
through that would be difficult. But I think we have to watch 
this JCPOA like a hawk and be ready to fight back against any 
violations and push back against ballistic missile technology.
    I also think, when you look at Iran--and it is not just 
what is happening in Yemen--I think what is extremely important 
is what is happening in Syria. And you look at Bashar al-Assad, 
who I actually believe created ISIS, not necessarily by signing 
on the dotted line somewhere, but by creating an environment 
where it is easy to recruit into Daesh or ISIS from. So I 
believe that Iran bears some responsibility for the existence 
of ISIS.
    Now, I also want to say--I am co-chair of the Iraq Caucus 
and, you know, obviously, an Iraq veteran myself. And when I 
was in Iraq, we saw the role of Iran and Iraq very closely. We 
know that hundreds of Americans died as a result of Iran's 
involvement in Iraq. And we know that, in fact, the incoming 
Iranian Ambassador is a senior IRGC official. So we can only 
estimate what that means. We cannot allow Iran to continue to 
destabilize Iraq.
    So, in addition to sanctions, Mr. Eisenstadt, how would you 
advise the administration to counter Tehran's influence in 
Iraq?
    Mr. Eisenstadt. First of all, the first thing I would 
recommend is that we commit to make it clear to the Iraqis--let 
me just say that the Iraqi Government, both the current 
government and even the previous government under Nouri al-
Maliki, has always wanted to maintain a balance between the 
United States and Iran. And indicating to them that we want to 
maintain a long-term security relationship with them as well as 
a relationship in other areas will make it clear to them that 
they will have the ability to continue with that policy.
    We have to recognize, because of proximity, they have to 
make their peace with the Iranians and live with a certain 
degree of influence that many Iraqis feel uncomfortable with. 
Making it clear that we want a long-term security relationship 
with them is the first part of that. I think committing to a 
long-term training relationship with the Iraqi Armed Forces--I 
mean, one of the things that has come through with this 
campaign in Mosul is that it was--basically, while, in the 
early days after June 2014, the Popular Mobilization Forces 
were very important for breaking the advance of ISIL, the 
conventional military forces have been key to pushing them back 
in most places. And I think we can make a very convincing case 
to the Iraqi Government that you need to continue building up 
your conventional security forces, and we are really the ideal 
partner to do that. Iran can't help you there.
    So, basically, there are things we can do, I think, in this 
regard to continue to ensure that Iraq knows that we want this 
relationship, and they will be able to push back.
    Mr. Kinzinger. That is important to know, too, is the Iraqi 
military can be fully capable, but they need the American 
military to stiffen their spine at least for now. And we see, 
obviously, that was important in the fight against Daesh.
    Ms. Rosenberg, I want to ask you about Syria. Again, 
500,000 dead Syrians almost, 50,000 of which are children. You 
are watching Iran use, I think, money from sanctions relief to 
prop up that regime. And, unfortunately, around the world, 
there is kind of this belief now that it is either Bashar al-
Assad or it is terrorism, and I don't think people recognize 
that, in fact, Assad is creating the next generation of 
terrorists right now--that we will end up having to fight--by 
taking away opportunity and freedom for people.
    But, specifically, when I talk about the sanctions relief 
and the money, do you know if there is any way we can track how 
much that money is being used in Iran? And if they are using 
that to fund genocides, what kind of action can we take to 
punish them?
    Ms. Rosenberg. Thank you for the question. It is difficult, 
as I think you are indicating, to track exactly where Iran's 
money that was unfrozen after the nuclear deal is going or is 
flowing specifically. That is true for a number of reasons. Two 
key ones are that, if we are talking about state revenues, it 
goes into a state budget and can be allocated under the design 
of the state. So there is not a transaction chain to follow if 
it were going through independent institutions that must use 
private banking channels, et cetera.
    Another significant reason that it is difficult to 
understand exactly where it is flowing is because Iran has 
ample reason to keep that money outside of its own jurisdiction 
and not to repatriate it and then to hand it over, in this 
instance, to President Assad in terms of cash or material 
support, using this to defend its currency, using it to balance 
international trade. Iran still struggles for access to hard 
currency. So there is quite ample reason for it to use this for 
what is essentially the civilian economy. There are great needs 
there in order to deliver economic relief to the population, 
which was a mandate, of course, of President Rouhani as part of 
this deal and following on.
    Mr. Kinzinger. Thank you.
    With that, I will yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Kinzinger.
    And Mr. Schneider of Illinois. Thank you.
    Mr. Schneider. Thank you.
    And, again, thank you to the witnesses for your testimony.
    Dr. Katzman, in your opening statement, you talked a bit 
about Iran's calculus and trying to change their calculus. If I 
think about math briefly, on the right-hand side of the 
equation are goals and objectives for Iran. Broadly speaking, 
that is preserving the regime and maintaining their influence. 
On the left-hand side of that equation are factors they control 
and factors they don't control--hopefully we can. Now, 
ultimately, it is up to everybody. What are the factors post or 
within the context of the JCPOA, within the context of what is 
happening in Syria, in Yemen, and around the region, with broad 
context of what is happening in our country and around the 
world--what can we do to change that calculus? And what do we 
have to understand about Iran's thinking to know which levers 
to pull or which buttons to push?
    Mr. Katzman. I would just start by saying Iran's calculus 
is multifaceted in the region. As I said in my statement, Iran 
views the Middle East as controlled basically by the United 
States, Israel, and Saudi Arabia. That is how they think, which 
is a power structure, in Iran's view, that is weighted against 
Shia, against Islamist parties, against anyone that is not part 
of the dominant elite. So they have chosen to intervene in a 
number of places to protect national interests, to protect 
their allies, to protect favored parties. And what is really 
needed is a multifaceted approach.
    Obviously, I think if all the conflicts we see going in 
Syria, in Yemen, in Iraq were ended, then Iran might not have 
rationale to be intervening as it is.
    Mr. Schneider. I suspect they would find other rationales.
    Mr. Eisenstadt, your thoughts?
    Mr. Eisenstadt. I just want to build on Ken's comments 
before about Iran and Hezbollah. I agree that we probably can't 
separate Iran from Hezbollah, but we haven't increased costs 
for Iran for its involvement in Syria. Our train-and-equip 
program with the Syrian opposition in the past was really not a 
serious effort. It may be too late now for us to mount a 
serious effort. But I would argue that we need to find people 
among the non-Salafist opposition to arm, both in order to 
ensure that areas where there are ceasefires remain 
ceasefires--because if the regime is able to build up its 
strength, it won't keep these ceasefires over time--and in 
areas where there aren't ceasefires and the regime continues to 
fight, we increase the costs for them and their allies, which 
includes the Iranians. And if this becomes a long-term quagmire 
for Iran, which this may be something which we don't have the 
ability to do now, but if we were able to do that, we might 
also be able to drive a wedge between Iran and Russia because I 
don't think--Russia has, I think, different interests in Syria 
than the Iranians do.
    But we need to have a cost-imposing strategy in Syria, 
which we have not really tried until now. And I would hope this 
current administration might consider that going forward.
    Mr. Schneider. I will come to you, Ms. Rosenberg, in a 
second.
    But, Mr. Eisenstadt, I need you to talk about Hezbollah. Is 
it fair to say that HIFPA, the Hezbollah International 
Financing Prevention Act, has had an impact on Hezbollah's 
ability to act in the region, or are there more things we can 
do around that as well?
    Mr. Eisenstadt. My understanding is it has had a major 
impact but perhaps not on their ability to act in the region, 
because I think, in terms of prioritizing moneys, from their 
point of view, their activities in Syria and elsewhere is 
existential, from their point of view, and if they have less 
money for social services and to provide for their base, well, 
in terms of guns and butter, the money goes to the guns and not 
the butter at this point. But in the long term, that could have 
an impact in terms of how their domestic support base looks at 
them if they can't benefit from this in the future.
    Mr. Schneider. Ms. Rosenberg.
    Ms. Rosenberg. I would just add briefly to that, in 
addition to raising the costs, I think that creating greater 
leverage for the United States and other international allies 
can be cultivated by exposing--further exposing--Iran's 
dangerous activities or naked violations of arms restrictions, 
for example. What I am talking about here is using sanctions as 
a means to expose particular violations or circumvention 
activities, doing more public interdiction of weapons for 
Houthis or to proxies, terrorist proxies, in the Middle East, 
and again through possibly use U.S. force posture and 
protection in the Middle East by identifying instances where 
Iran is engaged in threatening behavior, saber rattling in the 
Gulf and in the straits.
    Mr. Schneider. Thank you.
    With that, my time is all but expired. I will yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Schneider.
    Now, Mr. Connolly of Virginia.
    Mr. Connolly. Thank you, Madam Chairman, and thank you so 
much for pulling this together.
    Wonderful panel. I wish we had lots of time with each one 
of you because I have enjoyed listening to the testimony and 
watching it.
    I am going to go kind of rapid fire. Bear with me because I 
only have got 5 minutes, and this chairman is tight.
    Ms. Ros-Lehtinen. No, no, no. Take all the time you want.
    Mr. Connolly. Ms. Rosenberg, you answered Mr. Deutch's 
question about the apparent incompatibility of the Trump 
administration's desire for a rapprochement with Russia with 
Iranian threats. You said these don't need to be inconsistent. 
And I want to give you a chance to explain that because, to me, 
there is prima facie evidence they are inherently inconsistent. 
I mean, their support for Houthis, their support for Hezbollah, 
their support for Assad: These are all goals antithetical to 
U.S. policy that has not changed with the new administration--
that I am aware of.
    And what did you mean they don't need to be inconsistent? 
How could they be otherwise? I am not trying to challenge you. 
I want to give you an opportunity to clarify.
    Ms. Rosenberg. Sure. What I meant was that on U.S. posture 
toward Russia there could be both cooperation in certain 
domains and a tough pushback in others.
    Mr. Connolly. Even where we disagree.
    Ms. Rosenberg. Correct.
    Mr. Connolly. Got it. That is what you meant.
    Ms. Rosenberg. Yes.
    Mr. Connolly. Thank you.
    Dr. Katzman, how important do you believe, in resolving all 
of these issues ultimately--what is going on in Yemen, the 
civil war in Syria, and other tensions in the region; I could 
go down the laundry list--how important, at the end of the day, 
will diplomacy be as part of the solution?
    Mr. Katzman. Well, actually----
    Mr. Connolly. Could you speak up?
    Mr. Katzman. It was tried. After the JCPOA, there was in 
fact an effort to enlist Iran to try to get----
    Mr. Connolly. No. I am talking about our diplomacy.
    Mr. Katzman. Well, the U.S. tried to--we were talking with 
the Iranians after the JCPOA was finalized to get them to be 
helpful on Syria. It did not succeed. The JCPOA still went 
forward, but that did not succeed because Iran's interests were 
just completely different. They need Assad there because he is 
allowing this channel for Iran to support Hezbollah, which is 
their most cherished goal. So the Iranians did not cooperate. 
We tried diplomacy, and it did not succeed in that particular 
example.
    Mr. Connolly. Fair enough. But although that kind of goes 
back to Ms. Rosenberg's point--we agree on some things; we are 
going to disagree on others--it really depends on what is in--
perceived national interest. Apparently Iran perceived that a 
nuclear agreement was in its interests.
    Mr. Katzman. They absolutely did.
    Mr. Connolly. As did we and the other world powers.
    Mr. Katzman. The sanctions drove them into what we here, if 
it had done that much damage to our economy, it was on the line 
of the Great Depression here.
    Mr. Connolly. Thank you. Very good point.
    And that allows me to segue to Mr. Eisenstadt, and you can 
comment as well. How efficacious will sanctions be, can they 
be, on the issue of ballistic missiles and other unacceptable 
behavior by Iran? It seemed to work on the nuclear front. Can 
it, will it work here?
    Mr. Eisenstadt. I think the case of the nuclear sanctions 
are kind of sui generis at this point. And I think the best we 
could hope for is kind of incremental benefits, disrupting 
their efforts to acquire technology, know-how, and the like, 
small wins, if you will. The JCPOA gave us, if it works as 
intended, perhaps 15 years of respite in which we could use the 
time to perhaps change Iran's nuclear calculus. With the 
missiles, it is going to be an ongoing kind of thing with small 
victories at best.
    Mr. Connolly. When you said ``sui generis,'' part of that 
is we actually had, mirabile dictu, the cooperation of Russia 
and China and France. On ballistic missiles and other behavior, 
we clearly will not.
    Mr. Eisenstadt. Yes. I agree, yes.
    Mr. Connolly. Very good point. Either one of you, Ms. 
Rosenberg or Dr. Katzman, want to comment on that? This is very 
relevant to us, as the chairman knows, because we are, as we 
speak, looking at additional sanctions legislation.
    Ms. Rosenberg. Sure. I would add that----
    Mr. Connolly. If you can speak into that microphone like 
Dr. Katzman did.
    Ms. Rosenberg. In addition to sanctions that can and should 
be part of the strategy, I certainly agree that, as a kind of 
creation of leverage or means to cultivate U.S.--for deterrence 
for Iran, these are small by comparison to a conventional 
deterrence force, which underscores the point that sanctions 
must be part of a broader, more holistic strategy of alliance, 
politics, and operational activities, as well as conventional 
defenses, not to mention cyber activity, covert activity.
    And this body, Congress, is well positioned to oversee not 
just sanctions, of course, but other--these other realms as 
well, particularly force structure and appropriations.
    Mr. Connolly. Madam Chairman, if you would just allow Dr. 
Katzman to respond, and then I will yield back. I thank the 
chair.
    Mr. Katzman. I would say that----
    Mr. Connolly. You have got to speak into the microphone 
again, Dr. Katzman.
    Mr. Katzman. I sort of lost my train of thought.
    Mr. Connolly. Sorry. ``I would say,'' you started to say.
    Mr. Katzman. What was the question again? I am sorry.
    Mr. Connolly. I think were you about to say, ``I would say 
that was a brilliant question, Congressman Connolly, and God, I 
wish this hearing had been having more like that,'' something 
like that. No? That wasn't it. I was trying to help you here.
    Mr. Katzman. I mean, I would say sanctions were effective 
in getting the JCPOA because they affected Iran's core 
economic--its economy, its entire civilian economy. To work at 
the margins, to have other sanctions that are only going to 
nibble at the margins of Iran's economy are not likely to 
affect Iran's calculations.
    Mr. Connolly. Would you agree with Mr. Eisenstadt that in 
some ways the sanctions with respect to the nuclear development 
program were sui generis?
    Mr. Katzman. Yes.
    Mr. Connolly. And, therefore, unlikely to be replicated for 
anything else?
    Mr. Katzman. Well, if the new administration decides that 
it is going to implement the JCPOA, Iran is very clear that if 
the sanctions that were lifted are reimposed under other 
justifications, Iran is going to walk away from the deal. Iran 
is very clear on that.
    Mr. Connolly. Well, let me just say: There are many of us 
up here who support the JCPOA, who believe fervently the JCPOA 
is working, that, as a matter of fact, the existential threat 
to Israel was denial of JCPOA, not approval, and will not 
support sanctions that encroach on--that we won't do. I am more 
than willing to look at sanctions in the other venues. But I 
always worry with respect to sanctions about efficacy. And that 
is why I take what Mr. Eisenstadt said seriously. It doesn't 
mean don't do it, but if we are going to do it, it can't just 
be a feel-good, symbolic kind of thing. It has to be toward 
some end, a change in behavior. And that was the nature of my 
question.
    Mr. Katzman. Let me just give you--Iran was exporting 2.6 
million barrels a day of oil. When the sanctions kicked in, 
Iran was reduced to 1 million barrels a day, 60 percent 
decrease. That is what caused, that type of diminishment is 
what caused Iran to make a new calculation. Unless you can 
replicate that, it is going to be very difficult to get Iran to 
make a new calculus.
    Mr. Connolly. Excellent point. And we even got nations like 
India to agree--think about this--to reduce Iran as a supplier 
of something they don't really produce. That is a big hardship. 
And to get that level of cooperation takes a lot of diplomatic 
and other skills. And I take Mr. Eisenstadt's point: Not so 
easy to replicate that for other things. We can try, but that 
is going to be a bigger challenge.
    Mr. Eisenstadt?
    Mr. Eisenstadt. Can I make just one more point? Also, 
depending upon how U.S. relations with Russia and China evolve, 
even if Iran was to violate its JCPOA commitments, I am not 
sure we would even be able to snap back sanctions a few years 
from now. The stars all aligned in the last couple years to 
enable JCPOA and the sanctions. And politics might evolve in a 
certain way that it may not be possible in the future even for 
nuclear violations.
    Mr. Connolly. Good point.
    Madam Chairman, you have been very indulgent. And I really 
appreciate it, but I think this is a really important 
discussion. Thank you for putting this together.
    Ms. Ros-Lehtinen. You are right, especially in terms of new 
legislation that is building up in Congress.
    Thank you, Mr. Connolly, as always.
    And thank you to our witnesses.
    With that, our subcommittee is adjourned. Thank you.
    [Whereupon, at 3:37 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         
         
                                  [all]
</pre></body></html>
